         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Needs to Improve
       Physical Security at Its
       Offices in Las Vegas, Nevada
       Report No. 10-P-0059

       February 3, 2010
Report Contributors:                                Rudolph M. Brevard
                                                    Charles M. Dade




Abbreviations

EPA           U.S. Environmental Protection Agency
LVFC          Las Vegas Finance Center
OIG           Office of Inspector General
ORD           Office of Research and Development




Cover photo: An EPA building in Las Vegas that is protected by a card reader system.
             (EPA photo)
                                                                                                                10-P-0059
                       U.S. Environmental Protection Agency                                               February 3, 2010
                       Office of Inspector General


                       At a Glance
                                                                                Catalyst for Improving the Environment

Why We Did This Review             EPA Needs to Improve Physical Security at Its
The Office of Inspector            Offices in Las Vegas, Nevada
General (OIG) sought to
                                    What We Found
determine whether the U.S.
Environmental Protection
                                   EPA needs to improve physical security at its Las Vegas facilities. The Las Vegas
Agency (EPA) implemented
                                   Finance Center’s (LVFC’s) server room and other key areas are susceptible to
oversight practices for securing
                                   unauthorized access by personnel not a part of LVFC. The LVFC areas are protected
access to key EPA locations in
                                   by an access control system, but the system operator – ORD – does not administer the
Las Vegas, Nevada.
                                   system in a manner that allows LVFC to monitor access to its area. As a result, ORD
                                   granted personnel access to sensitive LVFC areas without proper authorization.
Background
                                   During our audit of EPA’s financial statements, we found that these problems are not
EPA occupies space in six
                                   limited to the LVFC. ORD does not administer the system in a manner that permits
buildings on or near the
                                   the other organizations in Las Vegas supported by the system to monitor access to
University of Nevada-Las
                                   their space. Also, ORD did not perform its responsibilities associated with managing
Vegas campus. These buildings
                                   and administering the computer-controlled card access system supporting all of the
use a card access system to
                                   EPA buildings in Las Vegas.
control personnel access to
these buildings. The Office of
                                   During subsequent communications with ORD, the office agreed with the findings
Research and Development
                                   and indicated that it planned to negotiate the transfer of the responsibility for the
(ORD) is responsible for
                                   maintenance and oversight of the portion of the card access system relied upon by the
managing the process for
                                   other offices within Las Vegas to one of the other offices.
authorizing and removing
personnel access to these           What We Recommend
buildings and for administering
the computer system that           We recommend that the ORD Office of Science Information Management develop
controls the card access system.   and implement procedures to ensure that all organizations are provided with the
EPA’s Security Management          information necessary to monitor and review the access to their space until one of the
Division within the Office of      offices accepts responsibility for oversight and maintenance of the card access
Administration and Resources       system. Until ORD completes the transfer, we recommend that each Las Vegas
Management is the responsible      office develop and implement a formal procedure that ensures it reviews the access
and primary agent within EPA       reports provided by ORD for anomalies on at least a monthly basis.
for physical security.
                                   Once one of the offices accepts the responsibility from ORD, we recommend that the
For further information, contact   office develop and implement a formal procedure for managing the card access
our Office of Congressional,       system under its control. After the transfer, we recommend that each of the offices
Public Affairs and Management      establish a formal procedure for reviewing and monitoring the access for the space
at (202) 566-2391.
                                   used by their office. We also recommend that the Security Management Division
To view the full report,           conduct an assessment of the physical security practices at EPA’s Las Vegas
click on the following link:       locations and conduct outreach to the Las Vegas offices to provide assistance. EPA
www.epa.gov/oig/reports/2010/      agreed with the findings and recommendations.
20100203-10-P-0059.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                         February 3, 2010

MEMORANDUM

SUBJECT:               EPA Needs to Improve Physical Security at Its Offices in
                       Las Vegas, Nevada
                       Report No. 10-P-0059


FROM:                  Rudolph M. Brevard
                       Director, Information Resources Management Assessments
                       Office of Inspector General

TO:                    See Below


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $49,122.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Due to the number of offices involved, EPA’s Security
Management Division within the Office of Administration and Resources Management has been
designated as the lead office responsible for coordinating a consolidated response to this report.
You should include a corrective actions plan for agreed-upon actions, including milestone dates.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Charles Dade, Project Manager, at (202) 566-2575 or
dade.chuck@epa.gov.
Addressees:

Tami Franklin
Acting Director, Security Management Division
Office of Administration and Resources Management

Dan Heggem
Acting Director, National Exposure Research Laboratory
Environmental Sciences Division
Office of Research and Development

Jack Puzak
Director, Office of Science Information Management
Office of Research and Development

Dany Lavergne
Director, Las Vegas Finance Center
Office of the Chief Financial Officer

Sheron Johnson
Director, Human Resources Management Division – Las Vegas
Office of Administration and Resources Management

Dennisses Valdes
Deputy Director, Environmental Response Team – West
Office of Solid Waste and Emergency Response

Jed Harrison
Director, Radiation and Indoor Environments National Laboratory
Office of Air and Radiation
EPA Needs to Improve Physical Security                                                                                            10-P-0059
at Its Offices in Las Vegas, Nevada




                                         Table of Contents 

Purpose ................................................................................................................................    1        


Background ..........................................................................................................................       1        


Scope and Methodology .....................................................................................................                 2        


Results of Review ................................................................................................................          2        


Recommendations...............................................................................................................              4        


Agency Response and OIG Comments .............................................................................                              5


Status of Recommendations and Potential Monetary Benefits.......................................                                            7        




Appendices 

    A        Response from Office of Research and Development ......................................                                        9        


    B        Response from Las Vegas Finance Center ........................................................                               13    


    C        Response from Human Resources Management Division – Las Vegas..........                                                       15    


    D        Response from Environmental Response Team – West ...................................                                          17    


    E        Response from Radiation and Indoor Environments National Laboratory .....                                                     19    


    F        Response from Security Management Division .................................................                                  21


    G        Distribution ............................................................................................................     22    

                                                                                                   10-P-0059 



Purpose
The Office of Inspector General (OIG) sought to determine whether the U.S. Environmental
Protection Agency (EPA) implemented oversight practices for securing access to key EPA
locations in Las Vegas, Nevada. We looked at these security issues during our review of EPA’s
consolidated financial statements for Fiscal Years 2009 and 2008.

Background
EPA occupies space in six buildings on or near the University of Nevada-Las Vegas campus.
Several EPA programs with diverse functions occupy these buildings. Details are in Table 1.

Table 1: EPA Las Vegas Offices and Functions
 Office                         Program Office               Function
 Las Vegas Finance              Office of the Chief          Supports payments for all of EPA’s grant award
 Center                         Financial Officer            offices. Supports the fellowship program by
                                                             making all fellowship payments and providing
                                                             additional services such as maintaining
                                                             completion of studies and payment enrollments.
 Human Resources                Office of Administration     Processes personnel and benefits actions for the
 Management Division –          and Resources                Agency's 17,000 employees. One of EPA’s
 Las Vegas                      Management                   three human resources shared service centers.
 National Exposure              Office of Research and       Conducts research, development, and
 Research Laboratory            Development                  technology transfer programs on environmental
                                                             exposures to ecological and human receptors.
 Radiation and Indoor           Office of Air and            Protects the public and the environment by
 Environments National          Radiation                    minimizing exposure to radiation and indoor air
 Laboratory                                                  pollution through environmental measurements,
                                                             applied technologies, and education.
 Environmental                  Office of Solid Waste        Provides assistance in environmental
 Response Team – West           and Emergency                emergencies. Serves as in-house consultant on
                                Response                     innovative and emerging technologies and has
                                                             recognized experts in several fields of science.
Source: EPA Office of Environmental Information Intranet.


The EPA Las Vegas offices use a card access system to control entry to these buildings. The
Office of Research and Development (ORD) is responsible for managing the process for
authorizing and removing personnel access to these buildings. ORD is also responsible for
administering the computer system that controls the card access system.

The Standard Operating Procedure for Management/Control of Access to Environmental
Protection Agency Buildings in Las Vegas, NV, dated February 17, 2004, requires ORD’s
Environmental Sciences Division Programs Operations Staff to: (1) grant access to EPA Las
Vegas facilities based on the fully completed submission of an employee data sheet form LV-172
with all appropriate signatures, (2) perform semiannual reviews of all access provided, and
(3) perform a review of the signatures on the LV-172 whenever the access requirements of a staff
member changes.



                                                        1

                                                                                       10-P-0059 





EPA Order 3210, Physical Security Program, designates the Security Management Division
within the Office of Administration and Resources Management as the responsible and primary
agent within EPA for physical security. The order requires the division to conduct periodic
nationwide physical security risk and vulnerability assessments of EPA facilities.

Scope and Methodology
We performed this audit from June through November 2009 at EPA offices in Las Vegas,
Nevada. We performed this audit in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and conclusions based on the
audit objectives. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions.

We interviewed EPA officials responsible for overseeing the administration of the Las Vegas
card reader system and managing the Las Vegas buildings access processes. We interviewed
EPA officials responsible for using the card access system reports to monitor personnel access
they oversee. We reviewed the Standard Operating Procedures that govern the maintenance and
oversight of the card reader system. We analyzed the card reader system reports provided by
EPA officials within Las Vegas. We reviewed forms Las Vegas offices use to request personnel
access to their building space.

We had not performed past audits of physical security at EPA Las Vegas offices. Therefore, we
did not perform follow-up work on any open recommendations.

Results of Review
EPA needs to improve physical security at its Las Vegas facilities. In particular, the Las Vegas
Finance Center’s (LVFC’s) server room and other key areas are susceptible to unauthorized
access by personnel not a part of LVFC. The LVFC areas are protected by an access control
system, but the system operator – ORD – does not administer the system in a manner that allows
LVFC to monitor access to its area. In particular, ORD had not obtained authorization from the
LVFC Director to grant access to key areas to non-LVFC personnel. ORD also had neither
provided the LVFC reports detailing who has access to their areas nor performed the required
semiannual review of access rights required by ORD procedures. As a result, personnel were
granted access to sensitive areas without proper authorization. Problems are not limited to the
LVFC. ORD does not administer the system in a manner that permits the other EPA
organizations supported by the system to monitor access to their space.

ORD did not perform its responsibilities associated with managing and administering the
computer-controlled card access system supporting all of the EPA buildings in Las Vegas. The
ORD personnel now responsible for this function work within ORD’s Office of Science
Information Management. We found that ORD:




                                               2

                                                                                          10-P-0059 



   •	 Did not grant access based on appropriately approved and completed LV-172 forms. Our
      review of access to a small sample of doors for which the LVFC Director was a required
      approving official disclosed personnel with access whose forms were not approved by the
      LVFC Director.
   •	 Did not fully complete the LV-172 forms we reviewed.
   •	 Did not perform the required semiannual reviews of the card access provided. ORD
      indicated that the only review performed was back in 2004, and even for that review it
      could not provide evidence that the review was performed or that any corrective actions
      were taken based on the review.

Along with not performing the responsibilities identified above, ORD has not been providing the
necessary information to the various EPA organizations serviced by the card access system to
allow them to monitor and review the access to their space. Radiation and Indoor Environments,
Human Resources, and LVFC all indicated that ORD has not provided them with the information
necessary to validate personnel who have access to their space. We also found that ORD was not
responsive to the offices supported by the card access system. The LVFC Information Security
Officer mentioned in a report that she attempted to review the access granted within the card
access system but found that the reports provided by ORD were not accurate and complete and
that the responses to her requests were not timely. To enable each organization to properly
monitor and review the access to its space, ORD needs to provide the following standard reports
to each organization on a monthly basis:

   •	 A report showing all of the access groups in Las Vegas that lists for each group (1) each
      of the doors the group can access, and (2) the days of the week and times that the group
      can access each of the doors.
   •	 A report showing all of the access groups in Las Vegas that lists all of the users, their
      associated card ID, and the expiration date of the access for each of the users for each
      group.
   •	 For reviewing the logged history of users’ access, a report that shows the: (1) criteria
      used for the creation of the report, (2) date and time of the access attempt, (3) action
      taken by the device, (4) location/site, (5) door, (6) user name, and (7) card ID.

Additionally, ORD needs to be responsive to the organizations’ special requests for reports and
provide them in a timely manner.

During subsequent communications with ORD, the office agreed with the finding and indicated
that it planned to negotiate the transfer of the responsibility for the maintenance and oversight of
the portion of the card access system relied upon by the other offices within Las Vegas to one of
the other offices. Because this transfer of responsibility will result in a change in the way EPA
will be providing physical security to the facilities in Las Vegas, we believe it would be in EPA’s
best interest for the Office of Administration and Resources Management’s Security
Management Division to conduct a review to ensure the procedures are implemented and
working as management intends. Furthermore, in response to the draft report, offices within Las
Vegas felt the Security Management Division should have involvement with ensuring security
responsibilities are appropriately transferred within the Las Vegas offices.



                                                 3

                                                                                            10-P-0059 



Recommendations
We recommend that the Director, Office of Science Information Management, within the Office
of Research and Development:

     1.	 Develop and implement procedures to ensure that all organizations are provided with
         the information necessary to monitor and review the access to their space both if and
         when the transfer takes place as well as in the interim until the transfer takes place,
         including:
             a.	 Providing electronic copies of the following reports to the director of each
                 organization supported by the system on a monthly basis to enable them to
                 monitor and review the access to their space.
                      i.	 A Standard Report showing all of the access groups in Las Vegas that
                          lists for each group:
                               1.	 Each of the doors the group can access, and
                               2.	 The days of the week and times that the group can access each of
                                   the doors.
                     ii.	 A Standard Report showing all of the access groups in Las Vegas that
                          lists all of the users, their associated Card ID, and the expiration date of
                          the access for each of the users for each group.
                    iii.	 For reviewing the logged history of users’ access, a standard report that
                          shows the: (1) criteria used for the creation of the report, (2) date and
                          time of the access attempt, (3) action taken by the device, (4)
                          location/site, (5) door, (6) user name, and (7) card ID.
             b.	 Providing, upon request, the reports as requested by the organizations in a timely
                 manner (within 2 working days) for special situations.

     2.	 Fully implement the standard operating procedures for the facilities that remain in the
         card access system for the National Exposure Research Laboratory, Environmental
         Sciences Division

     3.	 Perform a review to ensure the standard operating procedures are implemented and
         working and document the review, associated results, and corrective actions taken.

For the (a) Director, Las Vegas Finance Center, within the Office of the Chief Financial Officer;
(b) Director, Human Resources Management Division – Las Vegas, within the Office of
Administration and Resources Management; (c) Director, Environmental Response Team –
West, within the Office of Solid Waste and Emergency Response; and (d) Director, Radiation
and Indoor Environments National Laboratory, within the Office of Air and Radiation, we
recommend that:

     4.	 If your office accepts the transfer of the responsibility for management and oversight of
         the card access system, develop and implement formal procedures for managing and
         overseeing the card access system for all of the facilities/organizations supported by the
         system. The procedures should include:




                                                  4

                                                                                         10-P-0059 



            a.	 Listing steps for granting and removing access to the system.
            b.	 Providing on a monthly basis the reports noted in Recommendation 1 to the
                director for each organization supported by the system,
            c.	 Providing, upon request, the reports as requested by the organizations in a
                timely manner (within 2 working days) for special situations.
            d.	 Performing periodic reviews to validate
                    i.	 the access provided is limited to the access authorized and
                   ii.	 the access authorized is still needed.

    5.	 Develop and implement a formal procedure to review for anomalies, on a monthly basis,
        the logs and access reports provided by the Office of Science Information Management,
        within the Office of Research and Development, that are associated with the current
        card access system for the space used by its office.

    6.	 Once responsibility for overseeing the card access system is transferred, develop and
        implement a formal procedure for reviewing and monitoring the access for the space
        used by its office. The procedure should include continuing to review system logs and
        reports on a monthly basis for anomalies, as well as verifying at least annually that all
        users associated with the office space still need their current access.

We recommend the Director, Security Management Division, within the Office of
Administration and Resources Management:

    7.	 Schedule and conduct an assessment of the physical security practices at EPA’s
        Las Vegas locations to make sure the procedures are implemented and working as
        management intends.

    8.	 Conduct outreach to EPA offices within Las Vegas and provide technical assistance, as
        required, to ensure security responsibilities and practices meet Agency requirements.

Agency Response and OIG Comments
The Agency agreed with our findings and provided tentative corrective action plans to address
our recommendations. However, we noted the offices indicated differences in when they felt the
transfer of the responsibility for management and oversight of the card access system would
occur. ORD estimated that the transfer would take place on July 31, 2010, whereas the other
offices estimated it would take place no later than March 31, 2010.

ORD indicated that in December 2009 it implemented corrective actions that address
Recommendation 1. The corrective actions described appear to address our concerns and we
closed this recommendation in our audit tracking system.

We also noted that the Security Management Division will schedule and conduct its assessment
upon notification that the offices have completed the procedures required in response to
Recommendations 1 through 6.




                                                5

                                                                                        10-P-0059 



Additionally, both the (a) Human Resources Management Division – Las Vegas, within the
Office of Administration and Resources Management, and the (b) Radiation and Indoor
Environments National Laboratory, within the Office of Air and Radiation requested that the
Security Management Division be involved, provide technical advice, and assist with the transfer
and implementation of the door access system into the LaPlaza offices.

We believe that EPA should have one lead office serve as the coordinator for ensuring the
redistribution of security responsibilities at its Las Vegas offices. This should help to ensure
each office’s planned corrective actions are properly aligned and that all agreed-to actions are
tracked through completion. We request that the EPA’s Security Management Division, the
primary agent within EPA for physical security, coordinate the final consolidated response to this
report and the division agreed to do so. We also modified the report to request that the Security
Management Division conduct outreach to those Las Vegas offices that need assistance in
establishing security practices and the division agreed to do so.

Appendices A through F contain the complete responses provided by each office.




                                                6

                                                                                                                                             10-P-0059



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                         POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                                    BENEFITS (in $000s)

                                                                                                                             Planned
Rec.   Page                                                                                                                 Completion   Claimed    Agreed To
No.     No.                          Subject                            Status1              Action Official                   Date      Amount      Amount

 1      4     Develop and implement procedures to ensure that             O       Director, National Exposure Research
              all organizations are provided with the information                  Laboratory, Environmental Sciences
              necessary to monitor and review the access to                       Division, within Office of Research and
              their space both if and when the transfer takes                                   Development
              place as well as in the interim until the transfer
              takes place, including:
                 a. Providing electronic copies of the following
                     reports to the director of each organization
                     supported by the system on a monthly basis
                     to enable them to monitor and review the
                     access to its space.
                      i. A Standard Report showing all of the
                          access groups in Las Vegas that lists for
                          each group:
                              1. Each of the doors the group can
                                  access, and
                              2. The days of the week and times
                                  that the group can access each of
                                  the doors.
                     ii. A Standard Report showing all of the
                          access groups in Las Vegas that lists all
                          of the users, their associated Card ID, and
                          the expiration date of the access for each
                          of the users for each group.
                     iii. For reviewing the logged history of users’
                          access, a standard report that shows the:
                          (1) criteria used for the creation of the
                          report, (2) date and time of the access
                          attempt, (3) action taken by the device,
                          (4) location/site, (5) door, (6) user name,
                          and (7) card ID.
                 b. Providing, upon request, the reports as
                     requested by the organizations in a timely
                     manner (within 2 working days) for special
                     situations.

 2      4     Fully implement the standard operating procedures           O       Director, National Exposure Research
              for the facilities that remain in the card access                    Laboratory, Environmental Sciences
              system for the National Exposure Research                           Division, within Office of Research and
              Laboratory, Environmental Sciences Division                                       Development

 3      4     Perform a review to ensure the standard operating           O       Director, National Exposure Research
              procedures are implemented and working and                           Laboratory, Environmental Sciences
              document the review, associated results, and                        Division, within Office of Research and
              corrective actions taken.                                                         Development




                                                                                    7

                                                                                                                                                      10-P-0059


                                                                                                                                                  POTENTIAL MONETARY
                                                           RECOMMENDATIONS                                                                         BENEFITS (in $000s)

                                                                                                                                      Planned
    Rec.   Page                                                                                                                      Completion   Claimed    Agreed To
    No.     No.                          Subject                           Status1                 Action Official                      Date      Amount      Amount

     4       4	    If your office accepts the transfer of the                O        (a) Director, Las Vegas Finance Center,
                   responsibility for management and oversight of the                within Office of the Chief Financial Officer;
                   card access system, develop and implement                              (b) Director, Human Resources
                   formal procedures for managing and overseeing                     Management Division – Las Vegas, within
                   the card access system for all of the                              Office of Administration and Resources
                   facilities/organizations supported by the system.                               Management;
                   The procedures should include:
                       a. Listing steps for granting and removing                      (c) Director, Environmental Response
                           access to the system.                                     Team – West, within Office of Solid Waste
                       b. Providing on a monthly basis the reports                         and Emergency Response; and
                           noted in Recommendation 1 to the director                    (d) Director, Radiation and Indoor
                           for each organization supported by the                    Environments National Laboratory, within
                           system,                                                          Office of Air and Radiation
                       c. Providing, upon request, the reports as
                           requested by the organizations in a timely
                           manner (within 2 working days) for special
                           situations.
                       d. Performing periodic reviews to validate
                              i. the access provided is limited to the
                                 access authorized and
                             ii. the access authorized is still needed.
     5       5	    Develop and implement a formal procedure to               O        (a) Director, Las Vegas Finance Center,
                   review for anomalies, on a monthly basis, the logs                within Office of the Chief Financial Officer;
                   and access reports provided by the Office of                           (b) Director, Human Resources
                   Science Information Management, within the Office                 Management Division – Las Vegas, within
                   of Research and Development, that are associated                   Office of Administration and Resources
                   with the current card access system for the space                               Management;
                   used by its office.
                                                                                       (c) Director, Environmental Response
                                                                                     Team – West, within Office of Solid Waste
                                                                                           and Emergency Response; and
                                                                                        (d) Director, Radiation and Indoor
                                                                                     Environments National Laboratory, within
                                                                                            Office of Air and Radiation

     6       5	    Once responsibility for overseeing the card access        O        (a) Director, Las Vegas Finance Center,
                   system is transferred, develop and implement a                    within Office of the Chief Financial Officer;
                   formal procedure for reviewing and monitoring the                      (b) Director, Human Resources
                   access for the space used by its office. The                      Management Division – Las Vegas, within
                   procedure should include continuing to review                      Office of Administration and Resources
                   system logs and reports on a monthly basis for                                  Management;
                   anomalies, as well as verifying at least annually
                   that all users associated with the office space still               (c) Director, Environmental Response
                   need their current access.                                        Team – West, within Office of Solid Waste
                                                                                           and Emergency Response; and
                                                                                        (d) Director, Radiation and Indoor
                                                                                     Environments National Laboratory, within
                                                                                            Office of Air and Radiation

     7       5     Schedule and conduct an assessment of the                 O       Director, Security Management Division,
                   physical security practices at EPA’s Las Vegas                       within Office of Administration and
                   locations to make sure the procedures are                                 Resources Management
                   implemented and working as management intends.

     8       5     Conduct outreach to EPA offices within Las Vegas          O       Director, Security Management Division,
                   and provide technical assistance, as required, to                    within Office of Administration and
                   ensure security responsibilities and practices meet                       Resources Management
                   Agency requirements.

1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress



                                                                                         8

                                                                                         10-P-0059 





                                                                                     Appendix A

                         Response from Office of 

                        Research and Development 



                                         January 8, 2010




MEMORANDUM


SUBJECT: 	 Response and Corrective Action Plan For OIG Draft Report
           Entitled: “EPA Needs to Improve Physical Security at Its Offices in Las Vegas,
           Nevada” Assignment No. OA-FY09-0842

FROM:          Daniel Heggem /s/ Daniel T. Heggem
               Acting Director, Environmental Sciences Division
               National Exposure Research Laboratory
               Office of Research and Development

               Jack Puzak /s/ Christopher S. Robbins for
               Director, Office of Science Information Management
               Office of Research and Development

TO: 	          Rudolph M. Brevard, Director
               Information Resources Management Assessments
               Office of Inspector General

       Thank you for the opportunity to review and comment on the subject draft report. We
generally agree with the findings contained in the draft report and are taking steps to address
each of the three recommendations.

         As previously stated in our response to the position paper, since the creation of the 2004
Standard Operating Procedure (SOP) for card access referenced in the IG report, the number and
location of EPA staff in Las Vegas has increased significantly at the off-campus La Plaza
facility. On campus EPA staff includes ORD and a few OAR lab staff. Therefore, we believe
that the AA-ships (OSWER, OARM, OCFO, and OAR) located off-campus on Maryland
Parkway, should make minor modifications to their existing system and operate and maintain
access control independently of ORD's system. During the last Las Vegas Directors’ meeting,
local management from the other AAships agreed on this approach and a contract action has


                                                 9

                                                                                            10-P-0059 



been initiated to establish a separate access system. With this in mind, we plan to address the
OIG’s recommendations by implementing the corrective actions set forth in the attachment and
summarized below.

         In addition, due to organizational and staffing changes within ORD, the recently
established ORD “Office of Science Information Management” (OSIM) will have the primary
responsibility for implementing the corrective actions described below. NERL/ESD
management will work with staff in ORD/OSIM to facilitate implementation of the corrective
actions.

Recommendation 1: 

Develop and implement procedures to ensure that all organizations are provided with the 

information necessary to monitor and review the access to their space both if and when the 

transfer takes place as well as in the interim until the transfer takes place, including: 

        a. Providing electronic copies of the following reports to the director of each organization
        supported by the system on a monthly basis to enable them to monitor and review the
        access to their space.
                i. A Standard Report showing all of the access groups in Las Vegas that lists for
                each group:
                         1. Each of the doors the group can access, and
                         2. The days of the week and times that the group can access each of the
                         doors.
                ii. A Standard Report showing all of the access groups in Las Vegas that lists all
                of the users, their associated Card ID, and the expiration date of the access for
                each of the users for each group.
                iii. For reviewing the logged history of users’ access, a standard report that shows
                the: (1) criteria used for the creation of the report, (2) date and time of the access
                attempt, (3) action taken by the device, (4) location/site, (5) door, (6) user name,
                and (7) card ID.
        b. Providing, upon request, the reports as requested by the organizations in a timely
        manner (within 2 working days) for special situations.

Corrective Action:
We concur with the finding. As of December 2009, the procedures developed and contained in
the existing SOP are being followed and implemented. Additionally, when the next quarterly co­
located Directors’ meeting is held, the NERL/ESD Division Director will confirm with the other
directors that they are receiving the necessary reports. This process will continue until the other
organizations have their stand-alone system. A contract action has been initiated to establish a
separate card access system. The separate system is expected to be in place by July 31, 2010.

ORD/OSIM has distributed two reports entitled “User-all by access group” and “access group”
to all Las Vegas Division Directors. These reports will continue to be distributed on a monthly
basis. These Standard Reports show all of the access groups in Las Vegas and, for each group,
list all OIG recommended information. These reports will continue to be distributed to all
Division Directors until the transfer takes place at which time the report will be distributed to




                                                 10 

                                                                                         10-P-0059 



only the ESD Division Director. All special reports “upon request” will be provided in a timely 

manner for special situations. 


Recommendation 2: 

Fully implement the standard operating procedures for the facilities that remain in the card 

access system for the National Exposure Research Laboratory, Environmental Sciences Division 


Corrective Action: 

We concur with the finding. The SOP will be fully implemented for the ESD-LV facility within 

3 months of the completion of the transfer. 



Recommendation 3
Perform a review to ensure the standard operating procedures are implemented and working and
document the review, associated results, and corrective actions taken.

Corrective Action:
We concur with the finding. For the facilities that remain on the NERL/ESD card access system,
we will perform a review within 6 months after the updated standard operating procedures are
completed to ensure the procedures are being followed. The results of the review will be
documented.

Thank you again for the opportunity to address the findings contained in the subject draft report.
Please feel free to contact Chris Sibert at (702) 798-2234 if you have any questions.



Attachment


cc:
Jewel Morris
Marshall Gray
Christopher Sibert
Caroline Parton
Ardra Morgan Kelly




                                                11 

                                                                                                                   10-P-0059 




Rec.           OIG Recommendation                   Responsible                    Corrective Action                       Planned
No.                                                   Office                                                              Completion
                                                                                                                             Date
       Develop and implement procedures to          ORD/OSIM        We concur with the finding.                          Complete
       ensure that all organizations are
       provided with the information                                As of December 2009, the procedures developed
       necessary to monitor and review the                          and contained in the existing SOP are being
       access to their space both if and when                       followed and implemented. Additionally, when
       the transfer takes place as well as in the                   the next quarterly co-located Directors’ meeting
       interim until the transfer takes place,                      is held, the NERL/ESD Division Director will
       including:                                                   confirm with the other directors that they are
       a. Providing electronic copies of the                        receiving the necessary reports. This process
       following reports to the director of each                    will continue until the other organizations have
       organization supported by the system                         their stand-alone system. A contract action has
       on a monthly basis to enable them to                         been imitated to establish a separate card access
       monitor and review the access to their                       system. The separate system is expected to be in
       space.                                                       place by July 31, 2010.
       i. A Standard Report showing all of the
       access groups in Las Vegas that lists
       for each group:                                              ORD/OSIM has distributed two reports entitled
       1. Each of the doors the group can                           “User-all by access group” and “ access group”
 1     access, and                                                  to all Las Vegas Division Directors. These
       2. The days of the week and times that                       reports will continue to be distributed on a
       the group can access each of the doors.                      monthly basis. These Standard Reports show all
       ii. A Standard Report showing all of the                     of the access groups in Las Vegas and, for each
       access groups in Las Vegas that lists all                    group, list all OIG recommended information.
       of the users, their associated Card ID,                      These reports will continue to be distributed to
       and the expiration date of the access for                    all Division Directors until the transfer takes
       each of the users for each group.                            place at which time the report will be distributed
       iii. For reviewing the logged history of                     to only the ESD Division Director.
       users’ access, a standard report that
       shows the: (1) criteria used for the                         All special reports “upon request” will be
       creation of the report, (2) date and time                    provided in a timely manner for special
       of the access attempt, (3) action taken                      situations.
       by the device, (4) location/site, (5)
       door, (6) user name, and (7) card ID.
       b. Providing, upon request, the reports
       as requested by the organizations in a
       timely manner (within 2 working days)
       for special situations.
       Fully implement the standard operating       ORD/OSIM        We concur with the finding. The SOP will be          October 2010
       procedures for the facilities that remain                    fully implemented for the ESD-LV facility
       in the card access system for the                            within 3 months of the completion of the
 2
       National Exposure Research                                   transfer.
       Laboratory, Environmental Sciences
       Division.
       Perform a review to ensure the standard      ORD/OSIM        We concur with the finding. For the facilities       April 2011
       operating procedures are implemented                         that remain on the NERL/ESD card access
       and working and document the review,                         system, we will perform a review within
 3     associated results, and corrective                           6 months after the updated standard operating
       actions taken.                                               procedures are completed to ensure the
                                                                    procedures are being followed. The results of the
                                                                    review will be documented.




                                                                  12 

                                                                                       10-P-0059 



                                                                                   Appendix B

           Response from Las Vegas Finance Center




                                        January 7, 2010


MEMORANDUM

SUBJECT:	 Las Vegas Finance Center Response to OIG Draft Audit Report, “EPA Needs to
          Improve Physical Security at Its Offices in Las Vegas, Nevada,” Assignment No.
          OA-FY09-0842, dated December 11, 2009

FROM:	        Dany Lavergne, Director
              Las Vegas Finance Center

TO:	          Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Inspector General


Below is LVFC’s response to the subject Audit Report. We concur with all of the IG’s
recommendations for LVFC and will implement the required corrective actions. Details on the
recommendations pertaining to LVFC are provided below.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or need additional information, please call me at (702) 798-2483.


Recommendation #4: If your office accepts the transfer of the responsibility for management
and oversight of the card access system, develop and implement formal procedures for managing
and overseeing the card access system for all of the facilities/organizations supported by the
system.

LVFC Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system as quickly as possible; the target transfer date is
no later than March 31, 2010. LVFC will work with the other La Plaza offices to ensure that
formal procedures for management and oversight are completed within 90 days after the transfer.

Recommendation #5: Develop and implement a formal procedure to review for anomalies, on a
monthly basis, the logs and access reports provided by the National Exposure Research


                                               13 

                                                                                        10-P-0059 



Laboratory, Environmental Sciences Division, that are associated with the current card access
system for the space used by their office.

LVFC Response: LVFC currently has procedures for reviewing the logs and reports when they
are received, but they are not formally documented. A formal procedure will be developed by
January 29, 2010.

Recommendation #6: Once responsibility for overseeing the card access system is transferred,
develop and implement a formal procedure for reviewing and monitoring the access for the space
used by their office. The procedure should include continuing to review system logs and reports
on a monthly basis for anomalies, as well as verifying at least annually that all users associated
with the office space still need their current access.

LVFC Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system as quickly as possible; the target transfer date is
no later than March 31, 2010. LVFC will develop and implement a procedure for reviewing and
monitoring access to LVFC space within 90 days after the transfer.




cc:    R
       	 affael Stein
       Melvin Visnick
       Kechi Elliott
       Shelly Norland
       Peter Boudreau
       Charles Dade




                                               14 

                                                                                      10-P-0059 



                                                                                  Appendix C

       Response from Human Resources Management
                   Division – Las Vegas




                                        January 8, 2010


MEMORANDUM

SUBJECT:	 Human Resources Management Division – Las Vegas Response to OIG Draft
          Audit Report, “EPA Needs to Improve Physical Security at Its Offices in Las
          Vegas, Nevada, Assignment No. OA-FY-09-0842, dated December 11, 2009

FROM: 	       Sheron E. Johnson, Director
              Human Resources Management Division – Las Vegas

TO:	          Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Inspector General


Below is HRMD-LV response to the subject Audit Report. We concur with all of the IG’s
recommendations for HRMD-LV and will implement the required corrective actions. Details on
the recommendations pertaining to HRMD-LV are provided below.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or need additional information, please call me at (702) 798-2413.

Recommendation #4: If your office accepts the transfer of the responsibility for management
and oversight of the card access system, develop and implement formal procedures for managing
and overseeing the card access system for all of the facilities/organizations supported by the
system.

HRMD-LV Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system. The target date is no later than March 31, 2010.
HRMD-LV will work with the other La Plaza offices to ensure that formal procedures for
management and oversight are completed within 90 days after the transfer.




                                              15 

                                                                                        10-P-0059 



Recommendation #5: Develop and implement a formal procedure to review for anomalies, on a
monthly basis, the logs and access reports provided by the National Exposure Research
Laboratory, Environmental Sciences Division, that are associated with the current card access
system for the space used by their office.

HRMD-LV Response: HRMD-LV has procedures for reviewing the logs and reports when
they are received, but they are not formally documented. A formal procedure will be developed
by January 29, 2010.

Recommendation #6: Once responsibility for overseeing the card access system is transferred,
develop and implement a formal procedure for reviewing and monitoring the access for the space
used by their office. The procedure should include continuing to review system logs and reports
on a monthly basis for anomalies, as well as verifying at least annually that all users associated
with the office space still need their current access.

HRMD-LV Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system as quickly as possible; the transfer date is no
later than March 31, 2010. HRMD-LV will develop and implement a procedure for reviewing
and monitoring access to the HRMD-LV space within 90 days after the transfer.

Recommendation #7: Schedule and conduct an assessment of the physical security practices at
EPA’s Las Vegas locations to make sure the procedures are implemented and working as
management intends.

HRMD-LV Response: HRMD-LV would like for Security Management Division to be
involved and assist with the migration of La Plaza Building A into a separate system that is
managed by OAR/R&IE, The system should be integrated with the EPA Official Identification
Card (EPASS). HRMD-LV would like for Security Management Division to provide technical
advice, options for optimal service and performance, and guidance for becoming HSPD-12
compliant.

cc: 	   Susan Kantrowitz
        Matt Crouch
        Marsha Bush
        Fernando Gomez
        Chuck Dade




                                               16 

                                                                                        10-P-0059 



                                                                                    Appendix D

                     Response from Environmental
                        Response Team – West



MEMORANDUM

SUBJECT:	 Response to OIG Draft Audit Report, “EPA Needs to Improve Physical Security
          at Its Offices in Las Vegas, Nevada,” Assignment No. OA-FY09-0842, dated
          December 11, 2009 - from Environmental Response Team - West

FROM:	         Dennisses Valdés, Deputy Director
               Environmental Response Team-West

TO:	           Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of Inspector General


We appreciate the opportunity to review and comment on the draft Audit Report. One correction
needed in the report is the name of my organization. It is the Environmental Response Team.
This is erroneously called emergency on pages 1,2,4, and three times on page 7.

We concur with the IG’s recommendations pertaining to ERT-W and will implement the
required corrective actions. Below is the response to the ERT-W recommendations.

If you have any questions or need additional information, please call me at (702) 784-8003.

                                              ###

Recommendation #4: If your office accepts the transfer of the responsibility for management
and oversight of the card access system, develop and implement formal procedures for managing
and overseeing the card access system for all of the facilities/organizations supported by the
system.

ERT-W Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system as quickly as possible; the target transfer date is
no later than March 31, 2010. ERT-W will work with the other EPA La Plaza offices to ensure
that formal procedures for management and oversight are completed within 90 days after the
transfer.




                                               17 

                                                                                        10-P-0059 



Recommendation #5: Develop and implement a formal procedure to review for anomalies, on a
monthly basis, the logs and access reports provided by the National Exposure Research
Laboratory, Environmental Sciences Division, that are associated with the current card access
system for the space used by their office.

ERT-W Response: ERT-W currently reviews the logs and reports when they are received,
procedures for the review are not formally documented. A formal procedure will be developed
by January 29, 2010.

Recommendation #6: Once responsibility for overseeing the card access system is transferred,
develop and implement a formal procedure for reviewing and monitoring the access for the space
used by their office. The procedure should include continuing to review system logs and reports
on a monthly basis for anomalies, as well as verifying at least annually that all users associated
with the office space still need their current access.

ERT-W Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the EPA La Plaza portion of the card access system as quickly as possible; the
target transfer date is no later than March 31, 2010. ERT-W, with the other EPA La Plaza
offices, will develop and implement a procedure for reviewing and monitoring access to ERT-W
space within 90 days of the transfer.

cc: 	   Dany Lavergne, LVFC
        Jed Harrison, R&IE
        Sheron Johnsons, LVHRO
        Joe Lavergne, ERT-W
        Dave Wright, ERT




                                               18 

                                                                                       10-P-0059 



                                                                                   Appendix E

                Response from Radiation and 

           Indoor Environments National Laboratory 




                                        January 11, 2010


MEMORANDUM

SUBJECT:      Radiation and Indoor Environments National Laboratory’s Response to
              OIG Draft Audit Report, “EPA Needs to Improve Physical Security at Its Offices
              in Las Vegas, Nevada,” Assignment No. OA-FY09-0842, dated December 11,
              2009

FROM:         Jed Harrison, Director
              Radiation and Indoor Environments National Laboratory

TO:           Rudolph M. Brevard
              Director, Information Resources Management Assessments
              Office of Inspector General


Below is R&IE’s response to the subject Audit Report. We concur with all of the IG’s
recommendations for R&IE and will implement the required corrective actions. Details on the
recommendations pertaining to R&IE are provided below.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or need additional information, please call me at (702) 784-8220.


Recommendation #4: If your office accepts the transfer of the responsibility for management
and oversight of the card access system, develop and implement formal procedures for managing
and overseeing the card access system for all of the facilities/organizations supported by the
system.

R&IE Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system as quickly as possible; the target transfer date is
no later than March 31, 2010. R&IE will work with the other La Plaza offices to ensure that
formal procedures for management and oversight are completed within 90 days after the transfer.




                                               19 

                                                                                        10-P-0059 



Recommendation #5: Develop and implement a formal procedure to review for anomalies, on a
monthly basis, the logs and access reports provided by the National Exposure Research
Laboratory, Environmental Sciences Division, that are associated with the current card access
system for the space used by their office.

R&IE Response: R&IE currently has procedures for reviewing the logs and reports when they
are received, but they are not formally documented. A formal procedure will be developed by
January 29, 2010.

Recommendation #6: Once responsibility for overseeing the card access system is transferred,
develop and implement a formal procedure for reviewing and monitoring the access for the space
used by their office. The procedure should include continuing to review system logs and reports
on a monthly basis for anomalies, as well as verifying at least annually that all users associated
with the office space still need their current access.

R&IE Response: The EPA La Plaza offices are currently working with ORD to transfer
management of the La Plaza card access system as quickly as possible; the target transfer date is
no later than March 31, 2010. R&IE will develop and implement a procedure for reviewing and
monitoring access to R&IE space within 90 days after the transfer.

Recommendation #7: Schedule and conduct an assessment of the physical security practices at
EPA’s Las Vegas locations to make sure the procedures are implemented and working as
management intends.

R&IE Response: R&IE would like for Security Management Division to be involved and assist
with the transfer and implementation of the Door Access System into the LaPlaza Office,
including technical advice, options for optimal service and performance, guidance for becoming
HSPD-12 compliant. Additionally, R&IE would like the Security Management Division to
provide an assessment of Building E at LaPlaza, as well as assistance with aligning the Building
E system with EPA IT procedures and protocols; and guidance in managing different systems
that perform the same function or integrate into one system.



cc:    G
       	 ina Costantino
       Andrea Sibert
       Fernando Gomez
       Dany Lavergne
       Dennisses Valdes
       Sheron Johnson




                                               20 

                                                                                       10-P-0059 



                                                                                   Appendix F

       Response from Security Management Division



                                     January 8, 2010

MEMORANDUM

SUBJECT:	 Response to Draft Audit Report OA-FY09-0842

FROM:	        Tami Franklin, Acting Director
              Security Management Division
              Office of Administration and Resources Management

TO:	          Rudolph M. Brevard, Director
              Information Resources Management Assessments
              Office of Inspector General

       Thank you for the opportunity to comment on the Office of Inspector General’s Draft
Audit Report (“Report”) of December 11, 2009: “EPA Needs to Improve Physical Security at Its
Offices in Las Vegas, Nevada.”

       The Security Management Division (SMD) concurs with the Report’s recommendations
and has no additional comments. Below is SMD’s plan for completing Recommendation 7.
Please note that specific completion dates for Recommendation 7 are dependent on completion
of Recommendations 1-6 by other EPA organizations.

       Recommendation 7: “Schedule and conduct an assessment of the physical security
       practices at EPA’s Las Vegas locations to make sure the procedures are implemented
       and working as management intends.”

       SMD will schedule an assessment of the physical security practices at EPA’s Las Vegas
       locations within 3 months of being notified that the procedures in Recommendations 1-6
       of the Report have been completed. We will conduct the assessment to make sure the
       procedures are implemented and working as management intends within 6 months of
       being notified that the procedures in Recommendations 1-6 have been completed.

    Again, we appreciate this opportunity to review the Report. If you have additional questions,
please contact me at 202-564-9218.




                                               21 

                                                                                    10-P-0059


                                                                                Appendix G

                                    Distribution

Office of the Administrator
Chief Financial Officer
Assistant Administrator for Research and Development
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Air and Radiation
Director, Las Vegas Finance Center, Office of the Chief Financial Officer
Acting Director, National Exposure Research Laboratory, Environmental Sciences Division,
       Office of Research and Development
Director, Office of Science Information Management, Office of Research and Development
Director, Human Resources Management Division – Las Vegas, Office of Administration and
       Resources Management
Acting Director, Security Management Division, Office of Administration and
       Resources Management
Deputy Director, Environmental Response Team – West, Office of Solid Waste and
       Emergency Response
Director, Radiation and Indoor Environments National Laboratory, Office of Air and Radiation
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Air and Radiation
Acting Inspector General




                                             22 

